9r

oji

J-iSupreme Court, U.S."
FILED

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Lou Tvic

‘jr~-

— PETITIONER

(Your flame)
P H U fU ^ 5 «■ X 5-^r v < tes

VS.

—■

Ov^' -7 V.
■q a A—^d' v
D C J "V S C h -e 0 a n i:c
;. /T

, -v

___ — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

c£\:>

C.

r -I' / . ~

/' pp •eq \s Lourr

t

(NAME OF COURT THAT lXsT RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Lou T\iifr
(Your Name)

/

Or

I i t 3L

i /

(Address)
i

•J Cl i'

i :

(City, State, Zip Code)

a w-ano- n<z>6
(Phone Number)

Tx 1 S o
r \

- )

i

QUESTION(S) PRESENTED

SUMMARY OF THE ARGUMENTS-"QUESTIONS"
QUESTION 1.
Hasn’t the Texas Statue of Limitations in Texas which is 4 (four) years and
the time-barred debt expired? The rules and regulations and mortgage law states
the defendants have no right to proceed with any type of lawsuit or foreclosure
procedures against me, because time has expired, and they have forfeited these
rights. Then, should not all bodies of just and rightful agencies, courts, and laws
protect me, the people? (See all of my Exhibits).
QUESTION 2.
Since defendants claim I have not paid mortgage in years, do they have
proof I have not? No, they don’t. Since my home has been flipped, dipped ,
ripped, tripped, gripped, by approximately ten different mortgage companies, then
what happened to my mortgage payments and $20,000 down payment that was
made years ago? Is it defendants’ fault that they only have figures of amounts on
paper and no real proof of receipts that I did not pay, then they have no leg to stand
on, and I should be given my title or deed to my home free and clear. Is it my fault
by my subprime mortgage home being sold so many times, that many of my
records of payments have been lost, or miss-posted?

Page 2. Tyler v. Deutsche,<Qcwen

no^^e

*b-crv

(i?.-

QUESTION 3.
Tell me, am I not guaranteed the "unalienable rights" to "life, liberty and the
pursuit of happiness." as guaranteed to me by the United States Declaration of
Independence? This powerful Declaration right says has been given to all human
beings by their Creator, and which governments are created to protect.
QUESTION 4.
Then, was I not pursuing my right to life, liberty and the pursuit of happiness
when the defendants are trying to take away my precious home? Is the
government and courts and agencies not suppose to take up for me when this
ruthless aggressive bank, Deutsche based in Germany, and their collection agency,
Ocwen Loan Servicing is trying to take away my hard-earned money, home
insurance, $20,000 down payment, expensive property taxes,($4,000) a year, and
throw my children, grandchildren, puppy and dogs out of our home? Since, I even
provide bread and water for the near-by squirrels and raccoons, who jump on top
of my roof, running from dogs and other animals, and trying to survive in the trees
from the harsh cold or hot elements.

'• -tt- .

Page 3. Tyler vs. -©Gwen and Deutsche
QUESTION 5.
Question this: Am, I, a women, in her sixties with a disability qualified
under disability regulations? Don’t I have certain rights under the HAMP, HOPE ,
White House programs, and government agencies to be protected? Then, why did
Ocwen Loan Servicing, LLP, talk about a loan modification for me of $1,700 a
month mortgage payment when my notes were $880 a month; a total loan balance
of $304,000, when I purchased the home for $95,000 back years ago. The market
value of the home is $156,000, but damages the insurance company, Assurant
Insurance Co. has not repaired, places the actual home value around $50,000.
QUESTION 6.
Imagine this: Is this is fraudulent and efforts to force me out of my home, to
scream, be scared and to RUN. Aren’t the courts and agencies proud of me that I
am a fighter, and I didn’t tuck tail and run, but am standing up for my rights, and
some people are angry with me and retaliating against me, because I won’t bow
down and RUN.
QUESTION 7.
Please answer me, then? Should the Courts and judges hear my voice, my
cries, my agonies and my pain of the possibility of losing my home? The

P\AN1

Page 4—Tyler vs. Deutsche and Oewen
defendants have had million dollar and billion dollar judgments placed against
them. Recently, 49 Attorney Generals of the U.S. were awarded judgments against
Oewen for placing homeowners in houses they knew people could not afford, and
then foreclosing on them; charging late fees when payments were not late; robosigning; illegal foreclosing; breach of contract; failing to notify homeowners of
foreclosures, high interest rates, etc. Currently, the Department of Justice of the
U.S. has a $14billion lawsuit against Deutsche Bank, and is trying to force them to
pay, right now. These attorney generals, also, have class actions against Assurant
Insurance company that Oewen uses or did employ, because they placed lender
force-placed insurance on homes that already had homeowner insurance.
QUESTION 8.
Please tell me this; answer me this: Then why since the National Settlement
Administration stated that even though Oewen and Deutsche have been accused
and found guilty of the 2008 housing crisis, and all these wrong doings, then WHY
have I not found justice. My accusations against the defendants are similar and the
same. PLEASE TELL ME: WILL I FIND JUSTICE AND PEACE OF MIND?
WILL THE COURTS RIGHT THESE WRONGS AND RULE IN THIS
LITTLE, POOR TIRED HOMEOWNER? IN JESUS’S NAME. I PRAY.
AMAEN!!”# BY LOU TYLER. PLANTIFF. PRO SE. SO STRESSED!!#

Page 5—Tyler vs. Oewen/Deutsche
bk
SUMMARY OF THE ARGUMENTS—“QUESTIONS”
QUESTION 9.
In forma pauperis status. Seems like the Federal Court, The United States
District Court, for Northern District of Texas, Dallas Division must have become
angry at me, since these Judges dismissed my cases against defendants. In fact, the
judge granted me in forma pauperis status (See Judge’s Order in my Exhibits), but
then, took this status away, only after I appealed to your court, the appeal's court
5th district. Sees by evidence, that the Court must be angry or perturbed at me
because I went over their heads; therefore, they cancelled my “poverty status.”

Page &—Tyler vs. Ocwen/Deutsche ^ y
SUMMARY OF THE ARGUMENTS—“QUESTIONS”
QUESTION 9.
In forma pauperis status. Seems like the Federal Court, The United States
District Court, for Northern District of Texas, Dallas Division must have become
angry at me, since these Judges dismissed my cases against defendants. They
wouldn’t even hear the merits of my cases, just dismissed it right away. In fact, the
judge granted me in forma pauperis status (See Judge’s Order in my Exhibits), but
then, took this status away, only after I appealed to your court, the appeal’s court
5th district. Sees by evidence, that the Court must be frustrated or irritated at me,
because I went over their heads and appealed to your court; therefore, the judge or
judges issued a second order and cancelled my “poverty status”—in forma
pauperis statis. AM I NOT STILL INFORMA PAUPERIS?
QUESTION 10
Once I became in forma pauperis, and my financial situation remained the same,
am I not still in forma pauperis. Does a hasty order change my status? Since I am
labeled as disabled and on a fixed income, am I not entitled to not pay the court
costs. The Dallas federal court’s order at Earl Cabell, 1100 Commerce Street,
Dallas, TX cannot change my status, but by the Judges denying me informa
pauperis, this order can prevent me from filing my appeal since I don’t have the
$500 filing fee for the appeal’s court. Is this not a unjust motive?
QUESTION 11
So the lower courts, U.S. District Court stated I did not show good faith. Is it not
showing good faith when I’m fighting for my life, for the life, liberty and pursuit of
happiness for my children, grandchildren, dog and puppy, and even, the squirrels
and raccoons that I feed, since I live by a wooded area? Am I not showing good
faith when I worry that I may get foreclosed on and evicted from my precious
home? Is it not showing good faith, when I try to fight for my rights that are
supposed to be protected by the various agencies, government, justice department,
et. al.? Am I not showing good faith, for instead of turning to drugs to ease my
hurt and pain, instead of robbing stores, or people, instead of living in the gutters in
Tent City in Dallas, and instead of Committins suicide, because life is just not
worth livine? Instead of just iumpins off a bridse in mid-day traffic, or killing

Fc(g e 71- Que sir/o^s

myself by any means necessary, am I not showing good faith by living, breathing
and trying to save my house, whereas the Texas Statue of Limitatiansjmd-Xime=Barred Debt has expired, and these mortgage bullies have no legal right to keep
flipping my home ten times, not postins money, charging me with their attorney
fees, etc? Tell me: “Who am I?” HAVE I NOT SHOWED GOOD FAITH IN
FAITHLY TRYING TO PROTECT MY CONSTITUTIONAL RIGHTS—THE
RIGHT TO LIFE, LIBERTY, AND THE PURSUIT OF HAPPINESS?
Then, why are the Courts angry at me, gave me poverty status, and took it back,
because I ask them to hear my case, because I am trying to file with the appeal’s
court?
I’m asking for help to stand against these powerful mortgage giants that already
caused the 2007 or 2008 housing crisis? Will this Court, these honorable and
respectful judges of the great state of Louisiana, review all of my documents and
help find justice and help me get clear title and deed to my home, and have all the
mortgage debt stated owed be dropped? In Jesus’s name, I pray. AMEN AMEN
AMEN!
I hope this appeals court will be a great deal fairer and more just in reading
the merits of my case. I hope, you, dear judges will rule with a just hand. Thank
you! May God Bless me and mine, you and yours, and may God please Bless
America!
.4 - -

<r j

/
/

S{ Q/v.

Lou Tyler, plaintiff, pro se

i

-n

t

UST-OF-PARTIES

t)4 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
iV //V

CITATIONS FOR APPEAL’S BRIEF
I.

Statute ofLimitations on Debt Collection Action in Texas
“The Texas Civil Practice and Remedies Code sets the Statute of
Limitations on a breach of contact for a debt, either in writing, or oral for
4 years.” (See Tex. Civ. Prac. and Rem. Code Section 16.004(a)(3).
“This means from the last time of the debtor, the creditor has 4 years to
file a lawsuit to obtain a judgment on a debt.” “The statute of limitations
is a “defense.” “It is up to the debtor to plead that the debt is past the
statute of limitations.” “The strongest aspect of a statute of limitations is
that it stops a creditor from pursuing a judgment on a debt after the
limitations have ended.” “This means that the creditor will never be able
to attach their judgment on any of the debtor’s property, and they cannot
get a court to enforce it.”
“Also, if a debtor were to file a Chapter 13 bankruptcy, the statute of
limitations can prevent the creditor from being paid out of the Chapter 13
plan payment.” Every state shows a statute of limitations that regulates
the amount of time a creditor has to file a lawsuit or pursue mortgage
foreclosure against you.
2. The FDCA—Fair Debt Collection s Practice Act is a federal law
designed to stop “abusive collection action.” The FCRA—Fair Credit
Rep ortins Act Federal states that “the reporting date for a debt begins at
the date of the delinquency and runs seven years plus 180 days after your
last payment.” If a creditor is reporting an old debt, “it is in direct
violation of the FCRA. “Certain collection agencies specialize in old
debts and rely on your ignorance and guilt to coerce payments.”

II.

1. Ocwen AccusedofIllesal Practices that Push Families into
Foreclosure
Heard on Morning Edition of NRP by news reporter, Chris Arnold , on
November 18, 2014 3:33A.M. According to Moody Analytics there
were 700,000 foreclosures in this year. Many of these were illegal
foreclosures, and many should never have happened.
2. Judsment for Borrowers: Winning Foreclosure Cases by
Challenging Presumptions, Living Lies by Garfield Firm posted April 10
2014 by Neil Garfield, 954- 495-9867 or 520-405-1688.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

^CirC,

APPENDIX B

.U , S. D s'ftr, c a;

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

■X- c
v0

’\j f ~

'■€% i S'

fVf Vt/ 0/ i fa nf

/{/eri'h'f.'t

O

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

TABLE OF AUTHORITIES
Cases
Barzelis v. Flagstar Bank, FSB.No. 14-10782 Fif.Cir(4/22/15)

Consumer Financial Protection Bureau(CFPB) and 49 attorney generals and
District of Columbia http://files.consumerfinance.gOv/f/201312_cfpb_
/consent-order_ocwen.pdf...................................................................
Consumer Financial Protection Bureau, Dec. 19, 2013 CFPB article on Ocwen.
CFPB enforces Dodd Frank Wall Street Reform Act and Consumer Financial
Protection Act and state laws..........................................................
Davis, Michael v. Wells Fargo U.S. Bank National Association as Trustee for the
Structured Asset Investment Loan, Trust Loan Trust 2005-2011.........
Lopez v. J.P. Morgan Chase Bank, NA, FI, 3DCA
Miller, James R. and Miller, Allene, plaintiffs vs. BAC Home Loans, defendants
TX Debt Collection Act (TDCA)Tex Fin Code 392.304(a)...................
Miller, J and Miller, A vs. BAC Home Loans, the Texas Deceptive Trades Practice
Act; Tex Bus and Com Act, sec 17.41 et seq. & Texas Common Law...
Murphy vs. HSBC Bank USA, No. H-12,3278-12, 2014 US. District, LEXIS
57612m SD TX, Apr. 23, 2014.......................................................................

Texas Fin. Code, sections 392.408(a)(8), 14, 18,19

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
E>0 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

N /A
[ ] reported at__
5 or,
/
[ ] has been designated fdr publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
A
[ ] reported at____________ / fV______________________
; or,
[ ] has been designated for publication but is not yet reported; or, jy /
1X1 is unpublished.
[ ] For cases from state courts: |\/ jp.
The opinion of the highest state court to review the merits appears at
Appendix —IklAito the petition and is

/// A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
court
appears at Appendix
A to the petition and is
[ ] reported at_______ 'PJ I fc________________________ ; or,
[ ] has been designated for publication but is not yet reported; or, /W |)
[ ] is unpublished.
1.

to

JURISDICTION

t ] For cases from fede
ral courts:
The date
was

Reunited s‘at<* Court of Appeals decided

f J No petition for

my case
rehearing was timely filed i
m my case. fV j j\.

*

States Court

order denyng rehearing

®d a copy orthe

[ ] An extension of time to file
Petition for a writ of certiorari
to and including __
was granted
in Application No. ^L_d—A 'ft / j
(date) on----- ft/ / /.
— --------(date)
P77T
The jurisdiietion of this Court is invoked
under 28 U. S. C. § 1254(1).

nr

[ ] For cases from state courts:

fj/fl.

A

case was

' A timeIy Pet^r rehearing was thereafter denied on the f „
appears at Appendix

Mi*

•

"d 3 C°Py °f the °rdor denying rSeS ***

'* m

t J An extension of time to fil
k//eihe Pet»Tjor a OTit of certiorari
to and including__
was granted
—— (date) on
hr /
Application No.
a
/ '
(date) in
IF'
The jurisdiction of this Court is invoked
under 28 U.S.C.§ 1267(a).
’iv

I
I
i;

*** (STATEMENT OF THE ISSUE)
Cause-Number
In thePetitioner/
Plaintiff, Lou Tyler

v.
Respondent/ Ocwen Lending Servicing.
LLC and Deutshe Bank.
Defendants.

District Court
Dallas County, Texas

A TIME-BARRED DEBT AND TEXAS
STATUTE OF LIMITATIONS LAWSUIT
NOW COMES, Lou Tyler, Plaintiff, pro se, and hereby asks
Courts to issue a TRO—Temporary Restraining Order
and/or Foreclosure Injunction to Halt the Tuesday. July 5.
2016 foreclosure sale, because THE TIME-BARRED DEBT
AND TEXAS STATUTE OF LIMITATIONS clearly states that
Texas has a Statute of Limitations that “sets a time limit for
bringing legal claims and initiating foreclosure action.”
The state law controls much of what happens in a
foreclosure, and Ocwen continues to get away with breaking
these rules, I guess, because they are a large company, and
people keep allowing them to do this.
(FORECLOSURE RULES Texas Civil Procedures) I allege
defendants, Ocwen Lending Services, et al. committed
numerous improper lending offenses against plaintiff (SEE
DETAILED EXIBITS). OCWEN DID NOT:
• DID NOT give plaintiff a 20-day notice of foreclosure as
required by law. In fact, I received no notice of
foreclosure from Ocwen. The only way I found out this
past week that Ocwen was going to foreclosure on me
was through a boat-load of flyers from bankruptcy

2.
attorneys telling me I was on the Tuesday, July 5, 2016
foreclosure list.
• Immediately, I started having heart palpitations, and
suffered or almost suffered a heart
attack from the sheer shock. My daughter, upon
hearing the news, had a grand mal epilepsyseizure as
we cannot afford to be kicked out of our home and roam
the dark hot streets of Dallas homeless, living under the
bridge or in Tent City among the other homeless.
Ocwen tried to trick me by not notifying me, because
they know they were committing a wrong against the
little old homeowner.
• OCWEN, a debt collection agency for Deutshe Bank, DID
NOT conduct a foreclosure “within the four years of the
default.” Ocwen states my default started in October,
2004; therefore 2004 plus 4 years later equals 2008.
Ocwen should have started and/or completed
foreclosure procedures in 2008, but they did NOT.
Ocwen claims they took over my loan in 2013, but my
sub-prime loan has been flipped so many times by seven
to eight mortgage companies.
Ocwen or Deutshe Bank NEVER notified me, initially, in
2013 that they took over my loan, and I never received
payment book or confirmation of whom I should pay.
Strangely enough, there have been “too many cooks in
the kitchen” and throughout the years, mortgage

3.
* companies admitted to plaintiff that they lost my
records, misplaced my files, miss-posted payments to
other people’s accounts, placed payments on
suspension, returned payments, and they have no sure
proof evidence that I owe what they claimed.
It seems someone typed up listing of amounts
defendant claims plaintiffs owed on paper randomly and
capriciously with NO BACKING, NO PROOF THAT
PLAINTIFF DID OR DID NOT MAKE ANY PAYMENTS.
• OCWEN LENDING SERVICES, LLC DID NOT give plaintiff
20-day notice to cure payments of default before
accelerating the note, and did NOT notify plaintiff pro
se that acceleration of note had even occurred. Indeed,
this requirement is “mandatory and non-waivable.”

** *

PLEASE SEE CASE LAWS STUDIES ON THE TIME-BARRED
DEBT AND TEXAS STATUTE OF LIMITATIONS I AM
INCLUDING FROM THE LAW LIBRARY, AS I HAVE BEEN
STUDYING LAW FOR YEARS. * * *
THE TIME-BARRED DEBT, TEXAS STATUTE OF LIMITATIONS
STATES THE COLLECTORS HAVE NO RIGHT TO INTIMIDATE,
HARRASS, OR OTHERWISE SCARE HOMEOWNERS OR
DEBTORS . ALSO, IT STATES THAT THE DEBT IS STILL

STATEMENT OF THE CASE
A. Proceedings Below. In areas where the federal standard applies,
federal courts will find an abuse of discretion because this district court:
(l.)Relied on clearly erroneous factual findings by defendants;
(2.)Made an error of law; and (3.) misapplied the laws to the facts.
Alcatel USA, Inc. v.DGI Techs., Inc.l66F. 3d. 772 790(5™ Circuit 1999).
The district court overreached the limits of its’ discretion when it
failed to consider required factors, as well as when its’ exercise of discretion
within its’ authority was so bad on its own terms that the appellant court
feels compelled to reject the actual choice. In order to make a discretionary
ruling, the sufficiency of evidence standard overlaps the abuse of discretion
standard, and the result is “similar” to the clearly erroneous standard,
Goodke v. Shoukfeh 943 S.W. 2nd 441, 446 Tex 1997. The Court has a
two-prong inquiry: (1.) Whether the court had sufficient enough information
to exercise its’ discretion , and (2.) and whether or not the court erred in
its application of discretion.
B. Statement of the Facts: Emotional Roller Coaster Ride
(l.)Ameriquest, and Citi-Residential continued to call, harass me hundreds
of times, threatening foreclosure, placing me in foreclosure, and when
actually about to foreclose, would pull my home out of foreclosure that
same day or the next day. Then, they would claim to place me back in a

5

loan modification program and add thousands more attorney fees, fore­
closure fees, finance tees, and inreresi. My family and I were very scared'!'

f

'-0-

STATEMENT OF THE ISSUES
Whether the district court, Northern District of Texas, Dallas Division erred
in granting summary judgment in favor of Ocwen Loan Servicing, LLC and
against this plaintiff, pro se, Lou Tyler, a homeowner fighting for her rights.

STATEMENT OF THE CASE
Statement of Facts
I am claiming that the 4-year Texas Statue of Limitations has run out on Ocwen
Loan Servicing and Deutsche Bank and Trust’s efforts to foreclose on me and to collect on
the erroneous debt they state I owe. I’m claiming all of the laws, statues, and acts I’ve
stated in my documents submitted by this brief. Sometime around December, 2004 and
January, 2005 (See letters from various agencies), Ameriquest Mortgage Co., who had my
loan at the time, (was sued by 49 attorney generals for mortgage fraud in a class action
lawsuit, started miss-posted my payments and not giving me credit sometimes. Their
agents said they miss- posted payments and wanted me to send it my mortgage note twice.
Other incidents include when Ameriquest returned a payment or more and told me they
didn’t want my money, but wanted to foreclose. I’ve had various mortgage companies and
loan servicing companies who acted as mortgage collectors during the past several years.
After flipping my house, promising loan modifications that they didn’t give me; stalling on
giving me receipt books and credit for some of my payments in the past; changing
representatives; stating they lost my loan mod papers. Meanwhile various mortgage
companies were charging me exorbitant interest and late fees and their own attorney fees,

2.

adding to my bill. At times they would sneak and try to foreclose on me without giving me
notice. I’m also stating (See my entire brief for detailed explanations) that I am requesting
clear and free title to my mortgage deed/title, and any monies or other awards, etc. I should
receive due to the fact that the defendants have broken rules and regulations and Acts, and
the Statute of Limitations in Texas, time-barred debt has expired years ago, even before
Ocwen started trying to collect on a debt that had been accelerated before they acquired
my sub-prime bundled loan.

/?/

J ifjt-

Lou Tyler
f.-i

G?
•r-

Fwd: QUESTIONS FOR THE COURT. REASONS TO HEAR WRIT OF
CERTIORARI
Ms. T. <integrity282@gmail.com>
Wed 2/21/2018 2:11 PM
To:ods06696cpc <ods06696cpc@OfficeDepot.com>;

REASONS IJ.S. SUPREME COURT SHOULD GRANT
WRIT OF CERTIORARI

1. A federal question exists: Why a lower court judges, U.S. District Dallas federal courts and 5th district court
of appeals would refuse to even allow Plaintiff, pro se,Lou Tyler’s cases to be heard. These courts simply
dismissed my cases.
2.

Another federal question for the U.S. Supreme Court to decide: Why do Dallas courts and judges not

respect the CFPB agency that states “It is illegal for creditors, mortgage companies, banks, etc. to file claims on
STALE TEXAS 4 YEAR STATUTE OF LIMITATIONS TIME-BARRED DEBTS? So why do lower courts
allow claims?
3. Another federal question: Why was the CFPB—Consumer Finance Protection Bureau even created to
protect the consumers, including homeowners, if the CFPB is not given enough power to enforce the FCRA-Fair
Credit Reporting Act and the FDCPA—Fair Debt Collection Protection Agency’s rules and regulationsA
4. Shouldn’t the CFPB be awarded more power to enforce, investigate and carry' out penalties for companies who
violate their laws, instead of just writing letters to companies? Should not the poor homeowners be given a voice?
Is this not the powerful rich versus the struggling and power stricken?
5. What about the struggling homeowner’s rights? Why do court decisions almost always lean towards
Big Businesses—mortgage companies and banks, etc., simply because they are huge debt collectors and are more
favored over the general homeowners?

Page 2. Writ of Certiorari
What about the FTC—Federal Trade Commission? Shouldn’t this federal agency be awarded more power and
authority to protect the general public against unfair practices of Big Businesses? Is it not humane and against the
Constitution:—freedom to be heard for homeowners cases to be dismissed as frivolous, and their LAWSUITS
NOT HEARD against injustices, fraud, illegal procedures, just because they are (1.) elderly (2.)poverty stricken
(3.) disabled (4)or when race, gender, sex, nationality or religion is considered? (5.) plaintiff, pro se without an
attorney (6.) or because workloads of courts are backed up and they don’t take the time to hear cases, so it is easier
to just dismiss cases?

6. Federal question: I AM SPEAKING FOR THE GENERAL PUBLIC, as @565,000 homes have been
foreclosed on in the past approximately 12 months. Many of these foreclosures were illegal foreclosures, roboforeclosures. Investigations by the Justice Department, Consumer Finance Department, Federal Trade
Commission, and other agencies have found Ocwen Loan Servicing and Deutsche Bank and Trust to be in serious
violations of these illegal activities. Even though these two companies and other companies have ADMITTED to
these charges and have agreed to pay out millions of dollars in penalties, these companies continue to commit
illegal activities.

7. When asked why, one company stated that it is more profitable. Even, some homeowners had paid on time,
had their payments posted late, posted to someone else’s account, payments suspended, and. erasable ink use to
steal homeowners payment, by erasing someone’s name, and writing in the thief’s name and cashing the checks.
Page 3. Reasons to Grant Writ of Certiorari
8.

SO, I BESEECH YOU, dear honorable, fair and unbiased judges, we, Texas homeowners are standing by to

see, if you are indeed fair, humane, and follow the U.S. Constitution, then, you will hear my Writ of Certiorari, or
follow the leaders.

I have painstakingly written this Writ hoping you will “HEAR MY VOICE,” and not
turn a deaf ear on the poor, struggling hardworking Americans. I beg of you to hear my cry as I represent the
GENERAL PUBLIC,
illegally, been promised loan mod, and then denied or whose homes meet the 4 YEAR STATUE OF
LIMITATIONS TIME-BARRED DEBT CFPB—CONSUMER FINANCE PROTECTION BUREAU LAW
THAT STATES “It is illegal for a creditor—mortgage company, bank, credit card company, or other to bring a
STALE CLAIM against a debtor (homeowner. et. al) WHOSE DEBT IS TOO OLD TO COLLECT ON

NOW, L Lou Tyler, beseech vou to grant me this Writ of Certiorari based on mv Writ of Certiorari I have mailed
you; and that you will hear mv cries based on the federal questions, and the general good of the public. Thusly.
Iam asking vou. fair and honorable iudees to OVERTURN THE RULINGS OF THE LOWER COURTS—
Dallas U.S. District federal courts in Cabell building and the 5— Circuit Appeals Court in New Orleans.
May God Bless me and my family, you and your family, and may God Bless you to hear and review and not
dismiss my Writ of Certiorari, and may God Please BLESS AMERICA! AMEN! AMEN! AMEN!
HALLELUJAH!

CONCLUSION
For the foregoing-reasons, the plaintiff-appellant, Lou Tyler,
Respectfully request that this Court grant my title and deed to my home
to me, free and clear. In addition, my family and my dogs pray that CitiResidentia| may be ordered to pay me a monetary amount for my pain
And suffering, and placing my home in the HOME MORTGAGE CRISIS
THAT RIPPED THROUGH THE UNITED STATES, AND THROUGH
TORE UP THE LIVES, HOMES, AND DREAMS OF HARD-WORKING
HOMEOWNERS ALL OVER THE UNITED STATES.
These mortgage and finance companies rocked the Stock Market,
banks, and single-handedly brought down the economy, closing and
bankrupting once profitable banks and businesses like Washington Mutual a
and Wachovia Bank. Some individuals committed suicide as a result due to
losing their homes, jobs, family, and life savings, all at one time.
Even GMC and other big named car dealerships shamefully had
to obtain federal government stimulus bailout monies. Citizens immediately
became homeless and hopeless, jobless, depressed, and stressed, placing the
World and the Nation is a nightmarish RECESSION, and near
DEPRESSION.

/

*

SUMMARY OF THE ARGUMENT "
WHO OWNED MY NOTE? BIG MILLION DOLLAR UUESTIUN7
In summary of my case, the Big Million Dollar Question is: Who
owned my note? In conduction my research, I discovered that so many
mortgage companies, finance companies, holding companies, etc. bundled,
had access to, and handled my note. There was so much “changing hands
of my sub-primed, at risk loan, that these companies, often did not own
my note, but just passed it on. These mortgage companieswe
mortgage were so disorganized and in a chaotic state of mind that they loss
my paperwork, and I spend thousands of dollars resending, refaxing, making
copies, acquiring money orders, and certified receipts for my payments.
consequently, many reps I spoke to were fired, and new reps replaced them,
and started the loan modification process, and foreclosure process over
again, dozens of times. Companies who handled my loan: (DWashinston
Mutual (2.) Ameriquest (3.) AMC Mortgage Services
(4.) Citi-Residential Lending, Inc.(5.) ACC Capitol Holdings (ACCH)
(6.)Argent Mortgage Co. (7.)Citi-Mortgage (8.)Citi Home Equity ^DeU't-fikc,
Residential Lending(9.)et AL O C W € Y\ L O ft n Se T V i C i -ft ^,
In fact, several mortgage companies tricked me, told me to quickly
Western Union payments to them. Shortly afterwards, I found out these
companies kept my money and did not give me credit for it. They told me
I would have to pay again to the new owners, because they no /longer held

C-

my note. At the time, I sent two to three payments in, even though I had
paid once, these companies knew they didn’t own my note or my money.

\

r' l u 5 ! 1i\

Looming Title Problems from Fabricated, Fraudulent Forged Documents
Posted on October 17. 2016 by Neil Garfield
—X^e one thing that is perfectly clear is that at some point the state legislatures who govern title to
property already have a huge problem brewing under their feet. There is no doubt in my mind, that the
solution will follow the example of the Murphy Act in Florida when title became unintelligible
some 80
years ago.
The new acts will essentially reset title as of a certain date. All the previous illegal and potentially
criminal actions will be ignored. All the people who were swindled out of their life savings will also be
ignored, because in the end it is the banks who control legislation, not the people.
Get a consult! 202-838-6345
https://www.vcita.eom/v/lendinglies to schedule CONSULT, leave message or make payments,
THIS ARTICLE IS NOT A LEGAL OPINION UPON WHICH YOU CAN RELY IN ANY INDIVIDUAL CASE. HIRE A
LAWYER.
see http://www.vice.com/read/when-you-buy-a-house-but-dont-actually-own-it
You have two problems looming here.
The first and largest problem is that most, nearly all, of the foreclosures were void and fraudulent. The
credit bid was accepted from a party who was not the creditor. THAT probably means that any deed on
foreclosure was and is void. In some states there is a "statute of limitations" on the void title which is
waived if you don't try to make it right before the one-year statute runs out. In Florida, after one year,
you can get damages (i.e., money) but you can't reclaim your title even from a void, fraudulent
foreclosure. Hence the Florida legislature institutionalized fraud in exchange for campaign donations.
The second problem is even worse and might not be correctable by legislation or even a court order. For
those who sent a notice of rescission and the "lender" did nothing, there is no doubt that if the
rescission was sent within 3 years of the fabricated "closing" that the nonexistent "loan contract" was
canceled and the note and mortgage were rendered void as of the date of mailing of the notice of
rescission.
Under Federal Law that notice of rescission rendered the mortgage or deed of trust void along with the
note. Therefore any action on the loan contract, the note or the mortgage or deed of trust after
rescission is void because those "instruments" are void. Void=Nothing. As far as I have been able to
determine, there is no statute of limitations on "nothing."
It gets worse. If the homeowner recorded the rescission, then according to State law, there is notice to
the world that title derived from the mortgage is void. And there is no statute of limitations on that
either, as far as I can tell.
Anyone who has taken title arising from either of the above scenarios has no title. If and when the day
comes that they are forced to defend the illusion of their "title" they will quickly find out that the title
insurer will be of no help and will deny coverage. And the same holds true for, lenders - but the lenders
don t care because their goal is merely to perpetuate the illusion of securitization.
Nearly all the foreclosures in the past 10 years fall under the first category, the second category or both.
Any legislation that deprives the owner of property without due process (i.e., judicial action) violates the
14th Amendment to the constitution.
Judicial action is void if it is based upon nonexistent facts. The facts are nonexistent if they were never
proffered in court or found, based upon competent evidence to be true, by the trier of fact. That is
missing from virtually all foreclosures.
Accordingly, it is my opinion that this another situation where the constitution be damned. The courts
and legislatures are continuing to advance nonsense: the pretense of valid loan contracts, valid notes,
valid mortgages and valid foreclosure sales to valid creditors submitting a valid credit bid.
Ask these lawmakers and law interpreters four questions:

•-

did you hear or see any evidence that identified the party to whom the payments from the borrower
were forwarded?
Jf_npl,j/vj]y_did_y.Qu_ass.um£j:hat3U£ii_a_pajly--existed a
La
court to act on
collateral for the benefit of the real creditor?
did you hear or see any evidence that connects the real creditors with the parties who appeared in
court?
If not, why did you assume that such a connection existed with an unidentified entity?

Filed under: foreclosure Tagged: | credit bid, creditor, recorded rescission, rescission, title
« Fannie and Freddie Unloading Bogus "Mortgage" Bonds Identification of Actual Creditor is essential for
Deciding Many Issues »
8 Responses
Anonymous, on October 18, 2016 at 6:00 am said:
Where can I find the statute in each and every state? Could you please explain more?
Rhody, on October 18, 2016 at 5:58 am said:
In some states there is a "statute of limitations" on the void title which is waived if you don't try to make
it right before the one-year statute runs out. In Florida, after one year, you can get damages (i.e.,
money) but you can't reclaim your title even from a void, fraudulent foreclosure.
We live in Rhode Island and the servicer sent us a copy of the promissory note with no signatures
whatsoever. I guess, they might have forgotten to copy and paste our signatures on it.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

/p

H
S

Date:

I- a.I-l?

